CASE NO.2020-6419

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER 2020 TERM

ROMELL BROOM,
Petitioner,
vs.

TIM SHOOP,Warden,

Respondent.

On Petition for a Writ of Certiorari

To the United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE OF REPLY TO BRIEF IN OPPOSITION TO
BROOM'S PETITION FOR A WRIT OF CERTIORARI

(CAPITAL CASE: EXECUTION DATE IS SCHEDULED MARCH 16, 2022)

S. Adele Shank, Esq.(OH 0022148)
Counsel of Record*

Law Office of S. Adele Shank

3380 Tremont Road, Suite 270
Columbus, Ohio 43221-2112
(614)326-1217

shanklaw@att.net
Timothy F. Sweeney, Esq.(OH 0040027)
Law Office of Timothy Farrell Sweeney

The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
(216)241-5003

tim@timsweeneylaw.com
Counsel for Petitioner Romell Broom

CERTIFICATE OF SERVICE

In compliance with this Court's COVID order of April 15, 2020(Order List: 589 U.S.)the
parties have agreed to electronic service. This is to certify that Respondent Tim Shoop, Warden is
the only party required to be served and that he has been served, in the follovdng manner, with a
true and correct copy of Petitioner Broom's REPLY TO BRIEF IN OPPOSITION TO BROOM'S
PETITION FOR A WRIT OF CERTIORARI: service made by electronic mail addressed to his

counsel, Benjamin Flowers, Ohio Solicitor General, Office of the Ohio Attorney General,

benjamin.flowers@ ohioattomeygeneral.gov, this 24^^ day of December,2020.

S. Adele Shank (0022148)
Counsel of Record*
Law Office of S. Adele Shank

3380 Tremont Road, Suite 270
Columbus, Ohio 43221-2112
(614)326-1217
Counsel for Petitioner Romell Broom

